H A R V A R D

L A W

S C H O O L

CAMBRIDGE ꞏ MASSACHUSETTS ꞏ 02138

CRIMMIGRATION CLINIC
HARVARD IMMIGRATION AND
REFUGEE CLINICAL PROGRAM
Harvard Law School
6 Everett St.; Suite 3105
Cambridge, MA 02138
617-495-0638

December 18, 2020

ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
RE:

Juarez v. Colorado, No. 20-120

Dear Mr. Harris,
I represent the petitioner in the above-referenced case. The petition for a writ of certiorari was
placed on the docket on July 30, 2020. The respondent filed its response on December 14, 2020. The
petition is therefore scheduled to be distributed on December 30, 2020.
I respectfully request that the Court delay distribution of the petition until January 13, 2021
pursuant to this Court’s Order of March 19, 2020. Such a brief, two-week extension is necessary to provide
petitioner’s counsel adequate time to prepare and finalize a reply in support of certiorari. In particular, I
have two small children under the age of six and it has been a significant challenge for my partner and I to
juggle childcare during the pandemic. Given my childcare responsibilities I have been forced to work a
part-time schedule. Although my children are currently in daycare, they are only able to attend part-time.
Furthermore, that part-time care may soon be ending. The COVID-19 positive test rate has significantly
increased in our geographic area and two teachers at my children’s daycare have recently tested positive.
Counsel for respondent does not object to this extension.
Pursuant to this Court’s Order of April 15, 2020, I am filing this letter solely by electronic filing.
Kind regards,

Philip L. Torrey
cc:

Andrew Cooper, Counsel for Respondent (by e-mail)

